           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED BY
       THE NEVADA DISABILITY
      DETERMINATION SERVICES


      June 2011   A-09-10-11090




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                               SOCIAL SECURITY
MEMORANDUM

Date:      June 27, 2011                                                    Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   Administrative Costs Claimed by the Nevada Disability Determination Services
           (A-09-10-11090)


           OBJECTIVE
           Our objectives were to (1) evaluate the Nevada Disability Determination Services’
           (NV-DDS) internal controls over the accounting and reporting of administrative costs;
           (2) determine whether costs claimed were allowable and funds were properly drawn;
           and (3) assess, on a limited basis, the general security controls environment.

           BACKGROUND
           The Disability Insurance (DI) program, established under Title II of the Social Security
           Act (Act), 1 provides benefits to wage earners and their families in the event the wage
           earner becomes disabled. The Supplemental Security Income (SSI) program,
           established under Title XVI of the Act, 2 provides benefits to financially needy individuals
           who are aged, blind, and/or disabled.

           The Social Security Administration (SSA) is responsible for implementing policies for the
           development of disability claims under the DI and SSI programs.3 Disability
           determination services (DDS) in each State or other responsible jurisdiction perform
           disability determinations under both DI and SSI. A DDS is required to make disability
           determinations in accordance with Federal law and underlying regulations.4 In carrying
           out its obligation, each DDS is responsible for determining claimants' disabilities and
           1
               Social Security Act § 223(a)(1); 42 U.S.C. § 423(a)(1).
           2
               Social Security Act § 1602 and 1611; 42 U.S.C. § 1381a and 42 U.S.C. § 1382.
           3
               SSA, Program Operations Manual System (POMS), DI 00115.001 (May 2009).
           4
            Social Security Act §§ 221 and 1614; 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601 et
           seq. and 416.1001 et seq.
Page 2 - Peter D. Spencer


ensuring adequate evidence is available to support its determinations. To assist in
making proper disability determinations, each DDS is authorized to purchase medical
examinations, X-rays, and laboratory tests on a consultative basis to supplement
evidence obtained from the claimants' physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury's (Treasury) Automated Standard Application for Payments
system to pay for program expenditures. Funds drawn down must comply with Federal
regulations 5 and intergovernmental agreements entered into by Treasury and States
under the Cash Management Improvement Act of 1990. 6

An advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the fiscal year (FY), each
DDS is required to submit a State Agency Report of Obligations for SSA Disability
Programs (SSA-4513) to account for program disbursements and unliquidated
obligations.7 The SSA-4513 reports expenditures and unliquidated obligations for
Personnel Service costs, Medical costs, Indirect costs, and All Other Non-Personnel
costs. 8

NV-DDS is called the Bureau of Disability Adjudication, a component of the
Rehabilitation Division within the Nevada Department of Employment, Training and
Rehabilitation (NV-DETR). Parent agencies, such as the NV-DETR, often provide such
administrative services as accounting, purchasing, and personnel to the
State-designated DDS.

In FYs 2008 and 2009, NV-DDS had about 102 employees and an authorized budget of
about $26.3 million for administrative costs. As of September 30, 2009, NV-DETR
reported total disbursements of $24 million and unliquidated obligations of $2 million
(see Appendix B).




5
    31 C.F.R. § 205.1 et seq.
6
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 650, and 6503.
7
  SSA, POMS, DI 39506.201 and 202 (March 2002). POMS, DI 39506.200 B.4 (March 2002) provides, in
part, that “Unliquidated obligations represent obligations for which payment has not yet been made.
Unpaid obligations are considered unliquidated regardless of whether the goods or services have been
received.”
8
    SSA, POMS, DI 39506.201 and 202 (March 2002).
Page 3 - Peter D. Spencer


RESULTS OF REVIEW
Generally, NV-DDS had adequate controls over the accounting and reporting of
administrative costs. We also found that the costs NV-DDS claimed were generally
allowable, and funds were properly drawn. However, we determined that NV-DDS
and/or NV-DETR

•     did not have support for $152,956 in claimed medical costs;
•     improperly charged $396,022 in indirect costs from components that did not benefit
      SSA;
•     improperly reported unliquidated obligations by approximately $2 million;
•     did not maintain adequate inventory records; and
•     needed to improve controls to protect sensitive information.

UNSUPPORTED MEDICAL COSTS

NV-DDS did not have support for $152,956 in claimed medical costs for FY 2009.
According to SSA policy, State agencies must provide, through their accounting and
statistical records, support for all obligations incurred in connection with making
disability determinations. Furthermore, a State’s records must permit verification by
SSA and Federal audit. 9 However, NV-DDS could not provide support for $152,956
claimed on the SSA-4513 submitted for the period ended September 30, 2009. This
occurred, in part, because of a systemic weakness in expenditure reporting for medical
costs.

NV-DETR, which is responsible for submitting the SSA-4513, used the State of
Nevada’s Financial Data Warehouse to obtain the amounts to report for medical costs.
However, for FY 2009, NV-DETR used amounts from a monthly cost expenditure report
generated from NV-DDS’ Versa system to prepare the SSA-4513. NV-DETR officials
stated they were unable to retrieve the transaction details in Versa to reconcile the
monthly expenditure report.

INDIRECT COSTS IMPROPERLY CHARGED TO SSA

NV-DETR charged SSA indirect costs from components that did not benefit NV-DDS.
As a result, NV-DETR charged SSA $396,022 in unallowable costs. Federal cost
standards state that expenditures may be allocated to a particular program if the goods
or services are charged in accordance with the relative benefits received. 10 They also



9
    SSA, POMS, DI 39509.005 B. (July 1996).
10
     OMB Circular A-87, Attachment A, § C.3.a. (revised May 2004).
Page 4 - Peter D. Spencer


state that indirect cost pools should be distributed to benefiting programs on bases that
will produce an equitable result in consideration of relative benefits derived. 11

Information Development and Processing

NV-DETR improperly charged $278,661 ($163,161 in FY 2008 and $115,500 in
FY 2009) for indirect costs from its Information Development and Processing (IDP)
division. According to NV-DETR, IDP provides such services as processing personal
computer equipment (for inventory purposes), maintaining telecommunications
equipment, and supporting five personal computers. However, NV-DDS has a
dedicated information technology (IT) team that provides systems support for NV-DDS
operations. The dedicated IT team provides support for all SSA-purchased servers,
computers, and printers and maintains the inventory of DDS equipment. In addition,
NV-DETR directly charges SSA approximately $230,000 per year for the dedicated IT
team. Therefore, based on the services provided, we concluded that the $278,661 in
indirect costs from IDP duplicated the costs for the NV-DDS IT team, and any relative
benefits received were minimal.

Research and Analysis

NV-DETR improperly charged $117,361 ($49,404 in FY 2008 and $67,957 in FY 2009)
for indirect costs from its Research and Analysis (R&A) division. According to
NV-DETR, R&A provides such labor market information as development and analysis of
labor force and industrial employment data; reports for employment service and
unemployment insurance system; presentations on the economy; and occupation,
wage, and projection information. Based on NV-DETR’s explanation of the services
provided, we concluded that R&A did not benefit NV-DDS. Accordingly, NV-DETR
should not have charged these indirect costs to SSA.

UNLIQUIDATED OBLIGATIONS

We reviewed the unliquidated obligations reported at year-end to determine whether the
amounts were supported by valid authorized obligations. Based on our review, we
determined that NV-DETR did not accurately report unliquidated obligations.
Specifically, NV-DETR overstated Medical costs by approximately $607,000 and
understated Personnel, Indirect, and All Other Non-Personnel costs by approximately
$1.4 million.

Medical Costs

NV-DDS overestimated unliquidated obligations for Medical costs for the SSA-4513s
prepared by NV-DETR at the end of FYs 2008 and 2009. This occurred because
NV-DDS did not review unliquidated obligations timely to deobligate funds no longer
needed. Since NV-DDS did not accurately estimate the unliquidated obligations, SSA
was unable to redirect these funds for other purposes. As shown in the table below,
11
     OMB Circular A-87, Attachment A § F.1. (revised May 2004).
Page 5 - Peter D. Spencer


NV-DDS overestimated unliquidated obligations for Medical costs by approximately
$607,000 in FYs 2008 and 2009.

                           Medical Cost Unliquidated Obligations
                                     FY 2008         FY 2009              Total
 Estimated & Reported                $327,042        $438,253           $765,295
 Actual                               $52,049         $106,727          $158,776
 Overstated                          $274,993        $331,526           $606,519

According to SSA policy, valid unliquidated obligations should be supported by
documents and records describing the nature of the obligations and supporting the
amounts recorded. SSA policy further indicates that State agencies should review
unliquidated obligations at least once each month and cancel those that are no longer
valid. 12

Personnel, Indirect, and All Other Non-Personnel Costs

NV-DETR understated unliquidated obligations for Personnel, Indirect, and All Other
Non-Personnel costs at the end of FYs 2008 and 2009. This occurred because
NV-DETR did not estimate obligations for the entire FY when it prepared its quarterly
SSA-4513s. Instead, NV-DETR only estimated obligations for a few weeks following
the end of the reporting quarter. As shown in the table below, NV-DETR
underestimated unliquidated obligations for Personnel, Indirect, and All Other
Non-Personnel costs by approximately $1.4 million in FYs 2008 and 2009.

      Personnel, Indirect, and All Other Non-Personnel Unliquidated Obligations
                                     FY 2008         FY 2009              Total
 Estimated & Reported                 $481,885      $1,488,013         $1,969,898
 Actual                             $1,289,331      $2,050,938         $3,340,269
 Understated                          $807,446        $562,925         $1,370,371

SSA’s procedures state that unliquidated obligations represent obligations for which
payment has not yet been made. Additionally, it states that unpaid obligations are
considered unliquidated whether the goods or services have been received or not. 13

INVENTORY CONTROLS

NV-DDS did not maintain adequate inventory records. Specifically, NV-DDS did not
have a complete inventory list of SSA-purchased computer equipment or computer
equipment that it had excessed. In addition, NV-DDS inventory records did not include
all information required by SSA. According to SSA instructions, equipment inventory
must include the following.

12
     SSA, POMS, DI 39506.203 A. (March 2002).
13
     SSA, POMS, DI 39506.200 B.4 (March 2002).
Page 6 - Peter D. Spencer


1. Description
2. Source of funds used to purchase (for example, State vs. Federal)
3. Unit cost (for inventory purchased with State funds)
4. Inventory or serial number
5. Date purchased
6. Physical location, including building address and room or floor location 14

NV-DDS’ inventory listing did not include the source of funds used to purchase, date
purchased, or the physical location for any of its computer equipment. Additionally, we
found computers, monitors, laptops, servers, and printers that were not included on the
inventory listing. Also, NV-DDS’ procedures for disposing of computer equipment were
inadequate. Specifically, NV-DDS had a storage room of equipment that was not in use
and was awaiting disposal. This equipment should have been, but was not, on its
inventory listing.

Most of these inventory errors occurred because of miscommunication between
NV-DDS and NV-DETR regarding the tracking of computer equipment. At the time of
our audit, NV-DDS and NV-DETR were resolving this issue. The State of Nevada had
also identified inventory errors in a prior audit.

RISK OF UNAUTHORIZED ACCESS TO SENSITIVE INFORMATION

Our review disclosed that NV-DDS lacked physical security controls over personally
identifiable information (PII). Specifically, NV-DDS did not keep sensitive records
secured when cleaning services were provided during non-work hours. Although
NV-DDS had a clean-desk policy; we found that its employees did not always adhere to
the policy. For example, when staff left for the day, PII remained on desks and in
unlocked bins overnight. These weaknesses increased the risk of unauthorized access
and loss of sensitive information.

According to SSA policy, if offices are not cleaned during work hours, the DDS must
take extra care to ensure documents containing PII are secured overnight, 15 and the
DDS should implement a clean-desk policy. 16 Sensitive records awaiting destruction
should be secured in locked bins or by other means to make the data unattainable to
unauthorized personnel. 17




14
     SSA, POMS, DI 39530.020 B.1 (October 2002).
15
     SSA, POMS, DI 39567.040 C. (October 2008).
16
     SSA, POMS, DI 39567.020 A. (October 2008).
17
     SSA, POMS, DI 39567.020 C. (October 2008).
Page 7 - Peter D. Spencer


CONCLUSION AND RECOMMENDATIONS
The costs claimed by NV-DDS were generally allowable. However, we found that
NV-DDS and/or NV-DETR needed to improve controls over the (1) reporting of Medical
costs, (2) reporting and review of unliquidated obligations, (3) inventory records, and
(4) protection of sensitive information. Finally, we determined that NV-DETR should not
charge SSA indirect costs for the IDP and R&A divisions.

We recommend that SSA:

1. Instruct NV-DETR to refund $152,956 or provide supporting documentation for
   unsupported medical costs claimed for FY 2009.

2. Instruct NV-DETR to refund $396,022 for unallowable indirect costs from IDP and
   R&A or provide documentation to support that the amounts charged were in
   accordance with the relative benefits received.

3. Identify and refund any unallowable indirect costs from IDP and R&A for FY 2010 to
   the present.

4. Ensure NV-DDS monitors and properly adjusts unliquidated obligations timely.

5. Instruct NV-DDS to track SSA-purchased computer equipment with an inventory
   system that complies with SSA policies.

6. Ensure NV-DDS enforces its clean-desk policy and keeps all sensitive documents
   secure.

AGENCY COMMENTS
SSA agreed with all our findings and recommendations. SSA also commented that it
would resolve each recommendation after we issued our final report.

NV-DETR generally agreed with Recommendations 4 through 6. For
Recommendation 1, NV-DETR stated the $152,956 represents outstanding (unpaid)
authorizations and as such, a refund was not justified. For Recommendations 2 and 3,
NV-DETR did not believe a refund of unallowable indirect costs was justified and
provided an explanation of the IDP and R&A benefits it provided to NV-DDS. However,
NV-DETR commented that it was open to any SSA suggestions and assistance in
updating its cost allocation plan, should it be deemed necessary.

See Appendices C and D for the full text of SSA’s and NV-DETR’s comments.
Page 8 - Peter D. Spencer


OIG RESPONSE
To resolve Recommendation 1, we believe SSA should obtain appropriate evidence to
support NV-DETR’s assertion that the $152,956 difference was attributed to
unliquidated obligations. For Recommendations 2 and 3, we believe additional
evidence is needed to determine whether the IDP costs were charged in accordance
with the relative benefits received. We also believe the services provided by R&A do
not benefit NV-DDS.




                                       Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – The Social Security Administration’s Comments

APPENDIX D – Nevada Department of Employment, Training and Rehabilitation’s
             Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act           Social Security Act
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
IDP           Information Development and Processing
IT            Information Technology
NV-DDS        Nevada Disability Determination Services
NV-DETR       Nevada Department of Employment, Training and Rehabilitation
OMB           Office of Management and Budget
PII           Personally Identifiable Information
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
R&A           Research and Analysis
SSA           Social Security Administration
SSI           Supplemental Security Income
Treasury      Department of the Treasury
U.S.C.        United States Code

Form
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
                                                                        Appendix B

Scope and Methodology
We reviewed the administrative costs reported to the Social Security Administration
(SSA) by the Nevada Disability Determination Services (NV-DDS) on the State Agency
Report of Obligations for SSA Disability Programs (SSA-4513) for Federal Fiscal Years
(FY) 2008 and 2009. As of September 30, 2009, NV-DDS reported the following
disbursements and unliquidated obligations on its SSA-4513.

Category                                               FY 2008            FY 2009
Disbursements
  Personnel Costs                                     $7,174,010         $7,086,796
  Medical Costs                                       $2,367,329         $2,559,361
  Indirect Costs                                      $1,575,238         $1,189,956
  All Other Non-Personnel Costs                       $1,041,404           $982,359
  Total Disbursements                                $12,157,981        $11,818,472
Unliquidated Obligations                                      $0         $1,926,266
Total Obligations                                    $12,157,981        $13,744,738

To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations, pertinent sections of SSA’s
    Program Operations Manual System, and other criteria relevant to security controls,
    administrative costs claimed by NV-DDS, and drawdowns of SSA program funds.

•   Interviewed employees from the SSA regional office; NV-DDS; and Nevada
    Department of Employment, Training and Rehabilitation (NV-DETR).

•   Obtained an understanding of the internal control structure to plan the audit and
    determine the nature, timing, and extent of the tests to be performed.

•   Obtained data from NV-DETR to support amounts reported on the SSA-4513 and
    tested the reliability of the data by comparing disbursements, by line item totals, with
    the amounts reported on the SSA-4513.

•   Reconciled the amount of Federal funds drawn for support of program operations to
    the allowable expenditures reported on the SSA-4513.

•   Examined the administrative expenditures claimed by NV-DDS for Personnel,
    Medical, Indirect, and All Other Non-Personnel costs in FYs 2008 and 2009.

•   Examined indirect costs for FYs 2008 and 2009 based on the approved indirect cost
    allocation plan.

•   Conducted a limited examination of NV-DDS’ general security controls environment.

                                            B-1
We determined the electronic data used in our audit were sufficiently reliable to achieve
our audit objectives. We assessed the reliability of the electronic data by reconciling or
comparing them with the costs claimed on the SSA-4513. We also conducted detailed
audit testing on selected data elements from the electronic files.

We performed audit work at NV-DDS and NV-DETR in Carson City, Nevada, and the
San Francisco Regional Office in Richmond, California. We conducted fieldwork
between June 2010 and April 2011. We conducted our audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

SAMPLING METHODOLOGY

Our sampling methodology included the three general areas of costs as reported on the
SSA-4513: (1) Personnel, (2) Medical, and (3) All Other Non-Personnel costs. We
obtained computerized data from NV-DETR and NV-DDS for FYs 2008 and 2009 for
statistical sampling.

Personnel Costs

We randomly selected 1 pay period in FY 2009 and reviewed a random sample of
50 personnel and all medical consultants. We tested payroll records to ensure
NV-DDS accurately paid its employees and adequately supported these payments.

Medical Costs

We reviewed 100 Medical cost items. Using a stratified random sample, we selected
50 medical payment records from each FY. We distributed the sample items between
medical evidence of records and consultative examinations based on the proportional
distribution of the total Medical costs for each year.

All Other Non-Personnel Costs

We selected 100 All Other Non-Personnel cost items. Using a stratified random
sample, we selected 50 payment records for each FY. Before selecting the sample
items, we sorted the transactions into the following categories: (1) Contracted costs,
(2) Electronic Data Processing Maintenance, (3) Equipment Purchases,
(4) Communication, (5) Applicant Travel, (6) NV-DDS Travel, (7) Supplies, and
(8) Miscellaneous. We then distributed the sample items between categories based on
the proportional distribution of the total Non-Personnel costs for each year.




                                           B-2
                                                                           Appendix C

The Social Security Administration’s Comments

June 04, 2011
Subject: Signed Draft Report (A-09-10-11090) - SF Reply

Pat,

Thank you for the opportunity to review OIG’s draft audit report on Administrative Costs
claimed by the Nevada DDS. We reviewed the draft report and we found each of the
recommendations valid and reasonable. As we generally do, we are deferring a final position on
how each recommendation should be resolved until after the final report is issued and Nevada
has had an opportunity to provide a response.

We appreciate the work performed by the OIG staff in the San Francisco Region.

Please let me know if you have any questions. Staff questions may be directed to Don Proffit at
(510) 970-4713 or Sathya Sharma at (510) 970-8306, both in the San Francisco Center for
Disability.

Pete
                                  Appendix D

Nevada Department of Employment, Training
and Rehabilitation’s Comments




                    D-1
D-2
D-3
D-4
D-5
D-6
D-7
D-8
D-9
D-10
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Regina Finley, Senior Auditor

   Vickie Choy, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-11090.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
